In the

~upreme

C!Court of tbe mlniteb ~tates
JAMES DAVID O'BRIEN,
Petitioner,

vs.
UNITED STATES SECURITIES AND
EXCHANGE COMMISSION,
Respondent.
On Petition for Writ of Certiorari to
the United States Court of Appeals for the
Second Circuit

CERTIFICATE OF SERVICE
I hereby certify that I am a member in good standing of the bar of this Court
and that on this 10th day of June, 2021, I caused three (3) copies of the Petition for
Writ of Certiorari to be served by third-party commercial carrier on the counsel
identified below, and caused an electronic version to be transmitted to the counsel
identified below, pursuant to Rule 29.5 of the Rules of this Court. All parties required
to be served have been served.

Counsel for Respondents:
Melinda Hardy, Assistant General Counsel
Eric A. Reicher, Special Trial Counsel
Office of the General Counsel
Securities and Exchange Commission
100 F Street, NE
Washington, DC 20549
(202) 551-5149
hardym@sec.gov
ri here@s c.gov

Bennett Ellenbogen
Paul G. Gizzi, Senior Trial Counsel
Securities and Exchange Commission
New York Regional Office
200 Vesey Street, Suite 400
New York, New York 10281
(212) 336-0077
ellenbogenb@ ec.gov

Solicitor General of the United States
Room 5616, Department of Justice
950 Pennsylvania Avenue, N.W.
Washington, DC 20530-0001
Executed on June 10, 2021.

anam1nan
Couns of Record
HANAMIRIAN LAW FIRM, P.C.
40 East Main Street
Moorestown, New Jersey 08057
Telephone: (856) 793-9092
Facsimile: (856)793-9121
E-mail: jmh@hanamirian.com
Counsel for Petitioner

